U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

February 23, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Neil Dussard v. United States, No. 20-6743
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 4,
2020, and placed on the docket on December 31, 2020. The government’s response is now due,
after one extension, on March 3, 2021. We respectfully request, under Rule 30.4 of the Rules of
this Court, a further extension of time to and including April 2, 2021, within which to file a
response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-6743
DUSSARD, NEIL
USA

DEVIN MCLAUGHLIN
LANGROCK SPERRY & WOOL, LLP
PO BOX DRAWER 351
MIDDLEBURY, VT 05753-0351
802-388-6356
DMCLAUGHLIN@LANGROCK.COM
802-388-6149(Fax)

